<html>
<title> - [H.A.S.C. No. 115-42] - Littoral Combat Ships and the Transition To Frigate Class</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


.                                     
                         [H.A.S.C. No. 115-42]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

       LITTORAL COMBAT SHIPS AND THE TRANSITION TO FRIGATE CLASS

                               __________

                              HEARING HELD
                              MAY 3, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-835                    WASHINGTON : 2018                     
                                              
  
  
  
  
  
  
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Jodi Brignola, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     3
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     1

                               WITNESSES

Boxall, RADM Ronald A., USN, Director, Surface Warfare (N96).....     4
Neagley, RADM John P., USN, Program Executive Officer, Littoral 
  Combat Ships...................................................     5

                                APPENDIX

Prepared Statements:

    Boxall, RADM Ronald A., joint with RADM John P. Neagley......    27
    Wittman, Hon. Robert J.......................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Byrne....................................................    36
    Mr. Langevin.................................................    35
       
       LITTORAL COMBAT SHIPS AND THE TRANSITION TO FRIGATE CLASS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                            Washington, DC, Wednesday, May 3, 2017.
    The subcommittee met, pursuant to call, at 3:31 p.m., in 
room 2212, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. The meeting will come to order. And we welcome 
the witnesses today. We are on an interesting time constraint 
today, so, Admiral Boxall, Admiral Neagley, thank you so much 
for joining us. I am going to jump right in, and I appreciate 
our witnesses here today.
    As we know, we are here to discuss littoral combat ship and 
the transition to frigate. Appearing before us to discuss this 
important topic are two esteemed Navy witnesses, Admirals 
Boxall and Neagley.
    Gentlemen, I want to thank you for your service and, just 
as important, thank you for appearing before this subcommittee 
on this most important issue.
    The Navy has developed a broad fleet architecture that 
presumes a high-low mix of surface combatants. At the high end 
in terms of capabilities and cost, the Navy continues serial 
production of the Arleigh Burke-class destroyers. But at $1.8 
billion for each destroyer, the overall shipbuilding plan 
cannot afford a fleet of destroyers and drives development of a 
small surface combatant. In response to cost-efficiency, Navy 
developed a littoral combat ship at a price point of $550 
million that is less than a third of their more robust 
destroyer counterpart.
    The challenge before this committee is to ensure the 
correct high-low balance of surface combatants that best 
responds to fleet requirements in the most efficient manner.
    My friends, this subcommittee is at a crossroads with the 
littoral combat ship program. The eventual transition from a 
littoral combat ship to frigate may be the most difficult issue 
that our subcommittee needs to assess.
    The littoral combat ship initially had a requirements 
foundation that was built on unstable ground. While cost had 
steadily improved with serial production, the issues of 
requirements stability, technology insertion, and anticipated 
employment of the littoral combat ship still confound the Navy. 
For example, certain critical components of the mission modules 
associated with the littoral combat ship continue to elude 
introduction to the fleet.
    While there are many challenges with this program, there 
are also many bright areas. For example, the shipbuilders at 
both Austal and Marinette Marine are constructing the littoral 
combat ship at a reduced cost and an ever-increasing quality. 
When I visited the construction yards in Mobile and Marinette 
this year, the pride of construction and efficiency of effort 
was evident. These shipbuilders are regional job engines and 
serve as great examples of American innovation.
    But great shipbuilders can only construct ships that have a 
solid requirements foundation. Moving forward, requirements for 
the littoral combat ship and the frigate will likely pose the 
greatest challenge. And I find it imperative that the Navy 
clearly articulates its desires for each platform to industry.
    I read the witnesses' opening statements and was pleased to 
note that the Navy intends to review the requirements 
associated with the littoral combat ship program and the 
eventual transition to frigate. I am particularly pleased to 
note that significant support for the fleet is being provided 
during this requirements review.
    From my assessment of the program, I believe that 
additional survivability, increased cruising range, and 
additional development margin for future expansion are needed 
improvements. I also believe a decrement in speed could be 
provided to best optimize these increased capabilities. I look 
forward to assessing Navy proposed requirements associated with 
the new frigate program.
    As to the current littoral combat ship acquisition, I 
continue to be concerned about the Navy's intended strategy. 
Ship construction is rife with examples of an immature design 
being used before it is ready. Invariably, an immature design 
leads to cost growth.
    Navy appeared to be set toward repeating this hard-learned 
lesson with the frigate's construction earlier this year but 
has since decided to review the frigate requirements, allowing 
the ship construction yards valuable time to better develop 
complete designs. In my opinion, this was a wise decision.
    Another problem with the acquisition strategy is the 
construction rate proposed by the last administration of only 
one ship in each of the fiscal years 2018, 2019, and 2020. This 
construction rate simply does not support both yards. I am 
committed to keeping both yards operational until the 
downselect to frigate occurs.
    I think that we can all agree that we need to improve the 
littoral combat ship acquisition strategy and better support 
the requirements for the transition to the frigate.
    To best review this issue, I am pleased that we have our 
two distinguished panel experts with us today, and I would like 
to thank them for joining us. We have Rear Admiral Ronald A. 
Boxall, Director, Surface Navy, N96, and Rear Admiral John P. 
Neagley, Program Executive Officer, Littoral Combat Ships.
    Thank you both again for testifying today, and we look 
forward to your thoughts and insights as to how to best improve 
the littoral combat ship and the eventual transition of 
frigate.
    I would now like to turn to our ranking member, Mr. 
Courtney, for any remarks that he may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 25.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Chairman Wittman.
    And thank you to both admirals for joining us here today 
for this very timely and important hearing on the future of the 
Navy's future frigates.
    There has been much debate during the history of the 
littoral combat ship and the debate of its successor, a new 
class of frigate, and, again, we are back at it. But our debate 
today is not simply about a name; it is about capacity and 
capability.
    Ten years ago, the second hearing I ever attended as a 
freshman member of this panel was on the topic of LCS [littoral 
combat ship]. Since then, I have seen this program twist and 
turn again and again as we have struggled to understand the 
Navy's shifting plans and requirements. We are not here to 
rehash the turbulent history of the LCS program, but I do hope 
that we can take some of the hard lessons learned from the 
history of this program to help better inform the decisions 
ahead.
    As we have heard from combatant commanders, our fleet 
requires a mix of both high- and low-end ships. We cannot 
afford nor does it make sense to simply build highly advanced 
yet very expensive destroyers.
    The LCS has come a long way from where it began from both a 
cost and capability standpoint. If the follow-on frigate can 
expand on the lethality and survivability further, I believe it 
will be exactly in line with the distributed fleet concept that 
our Navy leaders continue to say that we need.
    The frigate, which was the result of the in-depth review 
conducted by the Navy's Small Surface Combatant Task Force in 
2014, provided a framework through which the existing hull 
designs could be utilized to provide increased capabilities 
that the fleet desired.
    Based on previous testimony, the Navy has said that the new 
frigate will move away from the modular concept of the LCS to a 
multimission-capable ship that can operate independently or as 
part of a larger strike group or even surface action group.
    There may be additional changes to the frigate's 
requirements that may be warranted, and certainly there are 
many valid questions about the way forward that need to be 
addressed as we begin deliberations in the 2018 defense 
authorization bill. However, I am very concerned that the Navy 
and some in Congress could be considering yet another change 
and approach that could further complicate this program and set 
back our efforts to meet the force structure needs of the Navy.
    However flawed the LCS acquisition plan has been over the 
years, there is little doubt that the shipyards have made 
tremendous strides. With investment in their production lines 
and workforce and a relatively stable production rate, the cost 
of the LCS has come down considerably. And while there is still 
more work to be done, major disruptions in the acquisition 
plans and production rates at this point would be a tremendous 
setback to that progress.
    This is a panel that understands that shipbuilding is a 
long game. Affordability and success in shipbuilding requires 
stability in design and requirements and, above all, certainty 
in production rates in the short and long term. Constantly 
changing directions and strategies does a disservice to our 
industrial base and, ultimately, to meeting the needs of our 
naval forces. At some point, we need to decide on a plan and 
stick to it.
    We are at a pivotal point both in the future of our Navy 
and the effort to transition the LCS to a frigate. How we move 
ahead will have significant consequences for the fleet and the 
industrial base. I look forward to hearing from our witnesses 
about their plans to move forward in a way that meets the 
Navy's force structure requirement, gets the fleet the 
capabilities it is asking for, and provides the certainty that 
our industrial base needs.
    With that, I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Courtney.
    Admiral Boxall, we will go to you now for your testimony.

  STATEMENT OF RADM RONALD A. BOXALL, USN, DIRECTOR, SURFACE 
                         WARFARE (N96)

    Admiral Boxall. Thank you, Chairman Wittman, Ranking Member 
Courtney, members of the Seapower and Projection Forces 
Subcommittee. Good afternoon, and thank you for the opportunity 
to be with you today to talk about the small surface combatant 
class of ships, namely the littoral combat ship and follow-on 
frigate.
    My testimony today reflects the impact of the concept of 
distributed maritime operations, featuring a dispersed and 
connected architecture of more lethal and resilient ships 
operating independently or in small formations.
    In thinking about the concept of a network and distributed 
force, we conducted a series of war games and analytics that 
have revealed the set of capabilities our small surface 
combatants need to deter and fight in a complex, contested 
environment. These efforts contributed directly to the 2016 
Force Structure Assessment released last fall and revalidated 
the requirement for 52 small surface combatants and focused on 
increasing the capability of the class.
    Additionally, three separate, independent, and 
congressionally mandated alternative future fleet architecture 
studies conducted in 2016 concluded that the nature of the 
threats we face required that the small surface combatant class 
needed to evolve.
    These disparate but related intellectual pursuits have come 
together to create a more refined and appropriate set of 
capability requirements to meet the fleet challenges of 
tomorrow.
    We are currently working through the requirements process, 
taking into account cost and capability trades to optimize the 
value that the frigate of the future brings to the warfighter. 
The bottom line, however, is the future small surface 
combatants must be an even more survivable and lethal 
contributor in the distributed environment.
    It would be incorrect to assume that because we are moving 
to a more capable frigate design that we value LCS any less. 
Quite the contrary. We need LCS in the fleet as quickly as we 
can get it to fulfill the mission requirements the ship was 
designed to meet--missions that include anti-surface warfare, 
anti-submarine warfare, and mine countermeasures. The 
flexibility and modularity of these ships also ensure decades 
of capability upgrades, as they serve their estimated service 
lives of 25 years.
    LCS will carry out its missions, and the frigate will carry 
out others, but both of these members of the small surface 
combatant family will relieve pressure on the large surface 
combatant force, which is currently stretched thin.
    I look forward to your questions today, questions that I 
will answer as completely as I can, considering the impending 
submittal of the 2018 DOD [Department of Defense] budget.
    Thank you, sir.
    Mr. Wittman. Thank you, Admiral Boxall. We will now go to 
Admiral Neagley.

   STATEMENT OF RADM JOHN P. NEAGLEY, USN, PROGRAM EXECUTIVE 
                 OFFICER, LITTORAL COMBAT SHIPS

    Admiral Neagley. Mr. Chairman, Ranking Member Courtney, and 
distinguished members of the Seapower and Projection Forces 
Committee, good afternoon. I welcome the opportunity to testify 
today on the littoral combat ship and the future frigate 
program.
    Before I begin, I would like to ask the full text of our 
written statement be submitted for the record.
    Mr. Wittman. Without objection.
    [The joint prepared statement of Admiral Boxall and Admiral 
Neagley can be found in the Appendix on page 27.]
    Admiral Neagley. As the program executive officer for the 
littoral combat ships, I have cradle-to-grave responsibility 
for the acquisition and life cycle of LCS and the associated 
mission packages. As we deliver more and more of these ships to 
the fleet, I work in close contact with our fleet partners, and 
their demand for these platforms continues to be strong.
    Today, we have eight ships in the fleet, with four more 
delivering this year. Initial operational testing and full ship 
shock trials are complete for both variants, and the LCS design 
is stable and mature. Three littoral combat ships have deployed 
to East Asia, and others have participated in a wide range of 
fleet operations.
    As we gain operational experience with LCS, the Navy 
continues to improve the effectiveness of these ships. Lessons 
learned from construction, post-delivery test and trials, fleet 
operations, have informed changes that have rolled into the 
production and the ship design/manufacturing process to improve 
reliability and operational availability.
    But as the maritime threat evolves, the Navy is placing 
greater emphasis on distributed operations, highlighting the 
need for the full complement of small surface combatants and 
increasing the need for frigate design with improved lethality 
and survivability. The Navy is working to ensure frigate 
requirements deliver the right mix of capability, flexibility, 
and affordability.
    We understand the potential implications to future 
acquisition strategies, their shipyards, and their workforces, 
and these are considerations we do not take lightly. We are 
committed to delivering increased capability to our sailors for 
the best value for the American taxpayer, and that includes 
maintaining a competitive, healthy industry base.
    We welcome your input and oversight as we work through the 
transition of the LCS to the frigate. Thank you again for the 
opportunity to testify, and I look forward to your questions.
    Mr. Wittman. Admiral Neagley, thank you, and, Admiral 
Boxall, thanks so much for your opening statements.
    I am now going to go to our ranking member, Mr. Courtney, 
to begin the questions.
    Mr. Courtney. Thank you, Mr. Chairman.
    Rear Admiral Boxall, recent reporting has suggested that 
the Navy is taking another look at existing and even foreign 
designs as alternatives to the current seaframes.
    In 2014, the Small Surface Combatant Task Force, which 
testified before our committee a number of times in the last 
Congress, concluded definitively that both current existing 
U.S. designs and foreign designs did not meet even current LCS 
survivability requirements and would require major structural 
improvements to bring them to those minimal requirements. This 
was deemed to have even a greater cost impact than a new 
design.
    What has changed, and why is the Navy again questioning the 
exhaustive process of the Small Surface Combatant Task Force?
    Admiral Boxall. Thank you, sir.
    The Small Surface Combatant Task Force, the environment 
when they created that task force was, I will call it, reactive 
in nature. We were responding to, you know, criticisms and to 
get to a more capable, survivable ship and LCS as quickly as 
possible. And there was also fiscal guidance that was given at 
that time, but it was direction, kind of, to them.
    And I don't want to speak for that force; I was not on it. 
But as we go through our own analysis, we are making 
assumptions about the different capabilities, what we think we 
need. We look at the, you know, space, weight, power 
requirements that we think we need, with the capabilities that 
we have already looked at from the task force and as we 
continue to refine that.
    And as we look at it, we see indications that say, you 
know, every capability option you look at and every provider 
potentially of an offer of the future has to make some changes. 
And so the question really becomes, how big are the changes, 
and are they going to be cost-effective?
    From our view, we have less data on the foreign designs 
than we do most of the other designs in the U.S. But having 
said that, what we also learned from the Small Surface 
Combatant Task Force was that we have--we made some assumptions 
then that weren't exactly right even with regard to the LCS 
variants.
    And so, if you take that same thinking and you extrapolate 
that to what we are doing now, you say, well, we don't know if 
they can or can't do that with a foreign design or a U.S. 
builder with a foreign partner, and so we believe it is in the 
interest of the Navy to look at the requirements and to be able 
to include anyone who could provide full and open competition 
to get us the best capability at the best price.
    Having said that, there are challenges, like I said, with 
any option that, you know, they will have to get through to 
make it happen. We still have a timeline we want to get to, 
because time is of the essence, and we also have capability 
that we want to get. And, you know, the ones that are out there 
with designs that exist and we don't have a lot of information 
on it, we don't know if they will or will not be able to meet 
what we need.
    Mr. Courtney. Great. Well, again, I think in some ways this 
is sort of the question of the day for our subcommittee. Again, 
I am sure there will be followup with staff and other members.
    Again, I know time is a constraint, so I am going to stop 
there and let the chairman call on folks from his side.
    Mr. Wittman. Thank you. Thank you. And we can always come 
back for additional questions. I know we have a vote here, but 
we do plan on coming back after the vote.
    So Mr. Conaway.
    Mr. Conaway. Well, thank you.
    And let me--for the uninitiated, I mean, I have watched--I 
have been here as long as Mr. Courtney has and watched the LCS 
go through its various iterations.
    Can you help me understand what the frigate will actually 
do? Is it a gunship? Is it a missile? What is it that it will 
provide in terms of capability that you keep talking about? Can 
you describe that for me? And can you work that into the cost? 
Is it comparable to what the LCS is currently running at?
    Admiral Boxall. Yes, sir. Certainly we don't have any final 
solutions yet, but I will kind of give you the thinking.
    Certainly, if you looked at the frigate design as we had 
that was based on the work of the task force that was 
originally done, they had taken what was a single-mission ship, 
a modular design, where you could put anti-submarine warfare 
and anti-surface or a mine countermeasures mission package into 
that ship. And so, as we went forward with the Small Surface 
Combatant Task Force, the output there was to say let's combine 
and add anti-submarine warfare and anti-surface warfare, put 
some more survivability in.
    From a lethality standpoint, we added an over-the-horizon 
missile to all mission package combinations. You know, that was 
a hull seaframe addition. And that is kind of where we stopped, 
because, again, the guidance on that was the costs--that was 
about where the knee in the curve was for the cost guidance 
that was given.
    The difference this time, I think--and we have taken an in-
house look from the Navy standpoint. This was us deciding that 
we said, you know, we have heard a lot of, you know, the design 
requirements and the GAO [Government Accountability Office] 
report that has talked about, you know, going too quickly to a 
design without adequately giving it time to think through, and 
we have kind of a running start based on the work that we have 
done.
    But we do believe that there is an opportunity to get more 
survivability into the ship to allow it to conceptually, in 
this distributed maritime operations environment that we 
believe the ship will be operating in for its lifetime----
    Mr. Conaway. So help me understand what--in that fleet 
operations, where will this----
    Admiral Boxall. Yes, sir.
    Mr. Conaway. Will this be the outer edge of whatever it is 
you are doing?
    Admiral Boxall. So we are still working----
    Mr. Conaway. I am trying to figure out where this ship goes 
in the fight.
    Admiral Boxall. Yes. So, right now, the ship is going to 
be--it remains a forward-deployed asset that will kind of be in 
theater. So it will be for combatant commanders to combine with 
carrier strike groups either operating independently or they 
could work with them.
    One of the things that we are also looking at now that 
probably was not looked at as closely with the Small Surface 
Combatant Task Force was the commonality with other existing 
systems. So the idea that we could plug and play with the fleet 
as we needed, whether it be with weapons, sensors, the 
networks, and those types of things so that----
    Mr. Conaway. The networking between, say, a carrier strike 
group would be as robust as you need?
    Admiral Boxall. So one of the things we are looking at to 
try to do in the requirements is to ensure that this ship can 
be a provider of information and also a receiver. So it can be 
a node, if you will, though I hesitate to use that term, but 
the idea that it can plug and play and be used as an asset for 
the fleet commander to decide in a distributed environment how 
we can properly use that.
    So it really is a combination to operate disaggregated or, 
if we have to aggregate with other ships, that we would 
envision it to be able to do that.
    Mr. Conaway. All right. Well, a lot of convincing to do.
    Admiral Boxall. Yes, sir.
    Mr. Conaway. And I will yield back at this point.
    Mr. Wittman. Thank you, Mr. Conaway.
    We will now go to Mr. Norcross.
    Mr. Norcross. Thank you, Chairman.
    And thank you for your service.
    My colleagues are going to get into much of the detail we 
are speaking of. I am going to talk about capacity, in looking 
down the road with our ever-expanding fleet, and the numbers 
remain to be homed in on.
    When we look at what we are producing today, the two 
shipyards that are going at it, and we are trying to look down 
the road, we only have X amount of shipyards available to us. 
There are only so many people who are skilled trades.
    How much does that factor into some of the decisions you 
are trying to make today? Or does that say, well, we are going 
to be over capacity, this one is going to fall off the edge?
    Because you have to consider, we have great plans, but if 
we can't build it, it means nothing.
    Admiral Neagley. Yes, sir. Great question.
    Part of our assessment and part of the design review that 
we will execute as we look at potential frigate designs, a part 
of that will be, can that particular offeror produce that 
design? Do they have the production capacity to produce the 
design that they are offering? So part of our assessment of the 
design is also an assessment of their capacity to build that 
particular design.
    We certainly have two shipyards that have invested a great 
deal in the littoral combat ship. That investment, as we have 
talked about, has driven down costs and provided stability. So 
we want to leverage as much of that work as possible. But part 
of our assessment of the frigate design will be assessment of 
the offeror to provide the production and capacity to build 
that design.
    Mr. Norcross. But let me drill down a little bit on that. 
So you are only looking at that one capacity to build that one 
ship. But, overall, there are going to be many more 
requirements. Obviously, we don't have enough shipyards to put 
them out at the speed that we are going to need them.
    How do you determine, or is it above you that makes the 
determination, you know, we want this shipyard to produce this 
model instead of your model? How does that factor into that 
final selection?
    Admiral Neagley. So, again, when we look at--as we come 
through the design process and then we evaluate the ability of 
the contractor to produce that design, we look at things like 
workload curves. What is the current workload in that 
particular shipyard that is proposing to kind of build that 
ship? Do they have the capacity to take on that additional work 
to meet the numbers that we have asked for as part of the 
proposal?
    So we look at that capacity piece based on what the 
individual offerors are offering, to evaluate whether they can 
meet that capacity given their current workloads, their current 
manning, their current infrastructure in the yard. Do they have 
the capacity in the yard from a materials standpoint to produce 
those ships? And do they have the skilled workforce that can 
produce those ships on the schedule that we need them on?
    Mr. Norcross. So what I am hearing is you are not 
anticipating any conflicts of capacity?
    Admiral Neagley. Well, we would understand what other 
work--when we are evaluating those proposals, we would 
understand what other work is going on in those yards. So we 
wouldn't do it in a vacuum. If we----
    Mr. Norcross. But if you had made that decision last year, 
it would be a much different scenario than you are looking at 
at, say, 6 months from now, right? Because a year ago, nobody 
was talking about the expansion of our fleet the way we are 
today.
    Admiral Neagley. Yes, sir. Yes, sir. Exactly.
    Mr. Norcross. So those demands that are going to come upon 
us----
    Admiral Neagley. Yes. Yes.
    Mr. Norcross [continuing]. Weren't even part of that 
evaluation.
    Admiral Neagley. Correct.
    Mr. Norcross. They will be in 6 months from now.
    Admiral Neagley. Correct. Right. We will look across the 
entire shipbuilding plan to see where we are going to build 
those ships across the fleet architecture and then where LCS 
and the frigate fit to make sure we have capacity and those 
shipyards are going to produce those ships to deliver on the 
schedules that we are required to do.
    Mr. Norcross. But from what you are seeing now, you don't 
anticipate any capacity issues from the requirements that you 
are putting out?
    Admiral Neagley. We have to come through the requirements, 
but no.
    Mr. Norcross. Thank you.
    I yield back.
    Mr. Wittman. Thank you, Mr. Norcross.
    We are going to break to go vote, and we will be back at 
4:35. So I would ask all of our members to come back. We have, 
I think, some important questions to offer, so we will do that.
    And, Admiral Boxall, Admiral Neagley, if you will indulge 
us, we will be back at 4:35.
    Admiral Neagley. Thank you, sir.
    Mr. Wittman. And we are in recess.
    [Recess.]
    Mr. Wittman. I will reconvene the Subcommittee on Seapower 
and Projection Forces.
    And our next questioner will be Mr. Byrne from the great 
State of Alabama.
    Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Good afternoon, Admiral Boxall, and good afternoon, Admiral 
Neagley. Thank you for your patience, by the way. We have had 
this vote, and we appreciate you sticking around.
    What we just voted in there, an appropriation bill for 
fiscal year 2017 that includes funding appropriations for three 
littoral combat ships. Three ships a year maintains an 
equilibrium with the industrial base and the skilled and 
experienced workforce of the shipbuilders while driving down 
the individual cost of each ship, as you have already said.
    Admiral Neagley, to get to the frigate in FY20 [fiscal year 
2020], as you have stated, it seems clear to me that the Navy 
needs three LCSes in fiscal year 2018 and fiscal year 2019 in 
order to preserve the industrial base and cost efficiencies. Do 
you agree with that?
    Admiral Neagley. So I agree that three ships a year from an 
efficiency standpoint in the shipyard is the right level. That 
gets us efficient schedules, efficient costs.
    The number of ships in those years will be discussed as 
part of the POM [program objective memorandum] process for the 
requirements for the Navy. But, certainly, from a cost-
efficiency standpoint, leveraging the investments we have 
already made in those shipyards to produce ships efficiently, 
three ships a year is the correct number.
    Mr. Byrne. Thank you.
    Admiral Boxall, are there plans to backfit the existing LCS 
with some of the requirements we can assume will be part of the 
frigate, like adding an over-the-horizon missile to the 
Coronado, for example?
    Admiral Boxall. Yes, sir. Actually, even as we speak, we 
have, as you may know, LCS 4 [USS Coronado] is deployed out of 
Singapore, and she is carrying an over-the-horizon missile 
right now.
    It is our intention to continue to put an OTH [over-the-
horizon] missile on to backfit the LCS. Again, making those 
ships have offensive capability, to the extent we can afford to 
do so, is in line with the idea that we want to be very 
offensive with our ships as well.
    We have already approved, internal to the Navy, our--we 
have changed the key systems attribute, which is the way we 
inform the joint process of our intentions to make that a 
capability on that ship. And so that is our--we are full on our 
way.
    Obviously, as Admiral Neagley will tell you, we are still 
waiting for a July response for the request for proposal on the 
over-the-horizon missile, as you know.
    Mr. Byrne. Well, Mr. Courtney and I had the pleasure of 
being on the Coronado back in July at sea, and they were very 
pleased with the operation of the missile. And we heard later 
from Admiral Harris that he really likes the idea of having 
those things with missiles out there, because you can move them 
around and have some distributed lethality that we have talked 
so much about.
    Do you intend to leverage the money you have already spent 
on both LCS hulls in the frigate development path to 
incrementally increase the lethality of these ships as a phased 
approach to the frigate, especially for the hulls procured 
between now and the frigate in 2020?
    Admiral Neagley. So, yes, sir, there are specific lethality 
and survivability changes that we have already incorporated in 
the current contract that we intend to install on the follow-on 
ships based on funding available, so things like OTH, 
lightweight tow, additional magazine protection, protection 
around the chilled water systems that protect the SeaRAM 
system. So we have those already as options in the contract to 
go execute as part of the ships as we go forward.
    Mr. Byrne. So that is a certain amount of progress towards 
the frigate before we even get to the frigate, because you are 
incorporating some of those concepts into the LCS until we get 
to fiscal year 2020.
    Admiral Neagley. Yes, sir. Some of those attributes would 
be the same as we would pursue in the frigate design.
    Mr. Byrne. Let me ask you one final question. With regard 
to the two shipyards, obviously, we have several years--more 
than several years of experience there. We have trained 
workforces. They have done the things they need to do to make 
the shipyards themselves a more efficient way to produce their 
ships.
    Is it reasonable to expect that they could continue over 
the next couple years without having that same level of 
production, three LCSes a year?
    Admiral Neagley. Sir, I would say those shipyards invested 
and optimized those shipyards for producing two ships a year on 
a 4-month build cycle, to deliver two ships a year on 6-month 
centers. So I think if the profile is lower than that, we would 
be less efficient. There would have to be other work coming 
into the yards.
    Mr. Byrne. All right. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. Thank you, Mr. Byrne.
    We will now go to Mr. Garamendi.
    Mr. Garamendi. Needless to say, this is a very troubled 
water in which we are working here. What is the total number of 
LCSes that are scheduled to be built?
    Admiral Boxall. Well, right now, I mean, the plan we have 
through 2017 would give us--we hit 28 through 2017. I don't 
know the exact right now.
    Admiral Neagley. So it would be--so we have 30 LCSes in the 
plan right now.
    Mr. Garamendi. I am sorry. I couldn't hear you, sir.
    Admiral Neagley. Thirty in the plan, counting the LCS.
    Mr. Garamendi. And we have 12 that are on--8 are in water 
and 4 more that are about to be in the water?
    Admiral Boxall. We have nine delivered right now, but we 
have--obviously, you know, when we say ``delivered,'' that, you 
know, completes delivery. And then we are on a short schedule 
this year to finish up to the number--what do you have right 
now?
    Mr. Garamendi. So let me just short it there, because time 
will go by.
    Admiral Boxall. Yeah.
    Mr. Garamendi. So we basically have 9, 10, maybe 12 that 
are out there, and we are going to go to 30, and we don't think 
they work.
    Admiral Boxall. Well, we actually--I think they do work. 
We----
    Mr. Garamendi. If modified and if there is money to modify 
them. Is that what I heard you say, with regard to magazines 
and water systems and drive systems and so on and so forth? Do 
you have any idea what the cost of all of that is so that they 
actually have some survivability?
    Admiral Neagley. So let me clarify my statement. So the 
ship meets the survivability requirements as validated by DOT&E 
[Director, Operational Test and Evaluation]. So the additional 
capability or additional attributes we are talking about are 
above and beyond the requirement.
    Mr. Garamendi. I guess I missed this whole thing. I was 
here from the beginning, and all the talk was about 
survivability not being sufficient.
    Admiral Boxall. We want to get more survivability to 
improve its ability to do other missions to take some of that 
off of the higher-end ships, so to get it into the level 
where--right now, the mission of the ship is single-mission. It 
is an anti-submarine warfare/anti-surface warfare/mine 
countermeasures. So if it is doing those missions in an area 
that is a higher-threat area, then they would need to have a 
ship with higher survivability with it to protect it.
    Mr. Garamendi. So, in order to do what they are supposed to 
do, they have to be higher survivability than they presently 
have.
    Admiral Boxall. We think, in the future, by making them 
more survivable, it makes them more flexible, and it will take 
some pressure off the wider force. So we certainly would like 
to get--I mean, any ship we want to make as survivable as we 
can for the mission it has been needed to do.
    Mr. Garamendi. So we should go ahead and build another 20 
of these ships even though they are not survivable in what they 
are supposed to do unless we increase their survivability?
    Admiral Boxall. Sir, as of today, we have only nine of 
those ships out there, and they are still in kind of the post-
shakedown availability. We only have--one of the three mission 
packages is operational, but two will be coming on in the 
next--in 2018 and 2019.
    The ASUW, anti-surface, mission package is going to be the 
most capable we have on any ship in the Navy right now. The 
anti-submarine warfare package that delivers IOC [initial 
operating capability] in 2019 is the exact same system we have 
on our best destroyers out there to find submarines and also 
has a variable-depth sonar and the same helicopter and 
torpedoes that we have on our very best platforms.
    So they are clamoring for that capability in theater, both 
in the Mediterranean and whether you are in the Gulf or whether 
you are in----
    Mr. Garamendi. So, assuming all of that, we are now going 
to go build frigates, which is different than this, but yet we 
are going build another 20 of these. It doesn't quite----
    Admiral Boxall. Yes, sir. We have a requirement right now 
for 52 small surface combatants and 104 large surface 
combatants. As of today, we have--I think the number is 87 
large and we have 20 small, of which 11 of those are mine 
sweepers. So you can see we are noticeably short on what we 
need.
    So we want to get as many of those out there to assist and 
ensure the force has more capable anti-submarine warfare, the 
ability to protect themselves against small boats that are out 
there. We are seeing these threats today in the Bab-el-Mandeb, 
in an area that has a lot of small-boat activity. So these 
ships will be very welcome in those environments.
    Mr. Garamendi. Final question. Downsizing or downselecting. 
The frigate already is more expensive, and detail design has 
not been even thought about. So what is the cost of the frigate 
that is the follow-on to the LCS which needs to be upgraded in 
order to survive?
    Admiral Neagley. Yes, sir. So as we come to the 
requirements process and come through what the requirements, 
what capability needs to be on that frigate, we will go through 
a design process where we will mature that design. We will do a 
service cost--or a cost estimate of what that design costs, and 
then we will do an independent cost estimate to assess what 
that cost is for the set of requirements that are required for 
the frigate design.
    So that is work in front of us to do.
    Mr. Garamendi. Thank you. Right on time. Thank you very 
much.
    I yield back.
    Mr. Wittman. Thank you, Mr. Garamendi.
    We will now go to Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Thank you, Admiral Boxall, Admiral Neagley.
    Admiral Neagley, I think the last time I saw you was at 
Marinette, so it is good to see you. It is a somewhat warmer 
climate than it was that time.
    I would like to follow up on what my colleague Mr. Byrne 
said and just make sure that we are all clear on what would 
happen pending some decisions we are about to make.
    In a recent LCS hearing before this committee, Secretary 
Stackley described what he called a very skilled set of labor 
in the shipbuilding industry. Shipbuilding, he testified, 
requires unique skills in terms of shipfitters, pipefitters, 
and production control in the shipyard. What we can't afford to 
have happen is a sawtooth effect in terms of hiring and firing 
at our shipyards.
    He went on to describe this sawtooth effect, saying, ``We 
will be continually dealing with learning in terms of the labor 
themselves, and we will lose the skilled labor. They will go to 
other areas where there is a more stable employment 
environment, and that will come back to us in terms of cost and 
quality. So we have to maintain those two key elements in our 
industrial base. And it is particularly fragile at a time when 
your shipbuilding rates are below where you believe they need 
to be.''
    So, as I understand it, based on what you have said, what 
Secretary Stackley has said, anything less than three ships in 
fiscal year 2018 will indeed lead to this sawtooth effect, 
which, according to Secretary Stackley, will come back to the 
taxpayers in terms of cost and quality.
    Should the plan to fund one or two ships this year move 
forward and we fail to maintain a steady rate of three ships 
entering the shipyard pipelines, layoffs will occur at both 
yards.
    Admiral Neagley, do you agree with Secretary Stackley's 
assessment that these sawtooth layoffs would result in 
significant costs to taxpayers in terms of cost, quality, and 
schedule?
    Admiral Neagley. Yes, sir, I agree with that, his 
assessment. Stability and predictability, particularly in the 
shipyard, is a key to driving cost and have a predictable 
schedule.
    Mr. Gallagher. Admiral Neagley, I would also like to follow 
up by talking a bit about the learning curve associated with 
the initial development and production of first-in-class ships. 
And, certainly, there has been a lot made about what is 
working, what isn't working.
    What extra risks do these ships typically run in terms of 
schedule delays, cost overruns, or quality issues compared to 
subsequent iterations? How long does it typically take for 
these first-of-class issues to sort themselves out?
    Admiral Neagley. Yes, sir. So, in terms of learning curve, 
if you look at the first two ships we delivered--so LCS 1--I 
can talk in hours--so we delivered it in about 4.8 million 
hours. LCS 9, which is going to deliver this year, is down to 
about 2.9 million hours.
    So we have seen across both shipyards direct production 
labor come down about 40 to 60 percent in learning. So that is 
cost and schedule that is real.
    Mr. Gallagher. And it would be fair to say is real anytime 
you are deploying a first-of-class ship.
    Admiral Neagley. Certainly, there is a steep learning curve 
to start a new design and a new shipyard. You know, that 
initial cost would be much higher than a ship that has been in 
production for a while and captured the lessons learned and 
captured the changes in line.
    Mr. Gallagher. And those lessons learned, would it be fair 
to say, are being captured every day by the men and women who 
are working on the ship? And just talk to me a little bit about 
how having that experienced labor force contributes to greater 
efficiencies in cost that you are realizing every single day in 
both shipyards.
    Admiral Neagley. Yes, sir. So having both a shipyard that 
is facilitized to produce the ships that the Navy requires and 
to have a skilled workforce that can produce those ships on the 
timelines that we talk about is critical.
    In LCS, we are particularly advantaged. You know, we 
operated those ships early, so we have a lot of lessons learned 
from operational experience, and we are able to fold those into 
the production lines now, so the learning rate is quicker.
    With our ability to kind of capture lessons learned from 
underway deployments, fold those into pretty mature production 
lines, it is a way to kind of improve the capability quickly 
over time.
    Mr. Gallagher. And, Admiral Boxall, if the Navy's frigate 
program were to experience delays following the expected award 
in fiscal year 2020, how would that impact the Navy's overall 
ability to meet its small surface combatant requirements?
    Admiral Boxall. Well, sir, obviously, we would like to get 
ships out there to the numbers that we--you know, so the faster 
we get to 52 to meet the requirement, the less load we place on 
our forces out there. So, obviously, that would be an impact.
    If the delay goes, we want to make sure that we still--we 
produce the capability that we need out there in the ships. It 
would require either working those ships a little more or 
having the large surface combatants kind of pick up the slack, 
those types of mitigations.
    Mr. Gallagher. But, I mean, obviously, the large surface 
combatants are far more expensive, a different set of 
requirements. So can we get to 355 if we don't fully meet the 
small surface requirement?
    Admiral Boxall. So 355, I mean, one of the challenges we 
have in the shipbuilding program writ large with regard to the 
entire force is that--I would liken this to a bathtub that is 
draining faster than you are filling it.
    Mr. Gallagher. Uh-huh.
    Admiral Boxall. So we have the same problem with--you know, 
there are a lot of ships we have built--about the time they are 
starting to decommission, we will start seeing those ships 
retire at a faster rate than we are producing them, whether it 
be large or small surface combatants. So that trend is 
obviously something that is concerning to us.
    Mr. Gallagher. All right. Thank you both for your time.
    Admiral Boxall. Yes, sir.
    Mr. Wittman. Thank you, Mr. Gallagher.
    We will now go to Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Admirals, thank you for your time today.
    You have testified a Frigate Requirement Evaluation Team is 
redefining the frigate requirements to improve its ability to 
operate in a more contested environment than LCS and to enhance 
its role in distributed maritime operations.
    Now, as I understand it, there is a current effort underway 
to outfit the LCS and the frigate with an over-the-horizon 
weapons system, for which there is a wide spectrum of 
anticipated options that could be chosen, each with different 
capabilities. These range from inexpensive anti-ship solutions 
with limited utility in contested environments to highly 
advanced anti-ship solutions that could hold peer-nation 
surface vessels at risk in GPS [Global Positioning System]-
denied environments, which may be the environment in the 
Pacific area, where these vessels would certainly operate.
    If the Navy is redefining the role of the frigate, either 
it is envisioning over-the-horizon weapons as LCS-only 
solutions or it is reevaluating the correct capability for an 
anti-ship missile for the new frigate.
    Can we expect to see the Frigate Requirement Evaluation 
Team reevaluate the anti-ship capability needed for a frigate 
the Navy now says will operate in contested environments?
    And the second question to it: How will this impact the 
scope of the competition, which did not envision such operating 
conditions and appears to be disconnected with the work of the 
Frigate Requirement Evaluation Team?
    Admiral Boxall. Thank you, ma'am.
    We are still working, as I said, through--most of the 
efforts that we are looking at right now are focused on the 
survivability aspect of that, so you could say in improving the 
air defense capability, so protecting that ship. When you think 
about survivability of a ship, we look at the susceptibility, 
which is what we call the ability of it to keep from getting 
hit or taking out a threat as it comes at it.
    So the over-the-horizon missile, from an offensive 
capability, we already have a request for proposal out there 
right now on the requirement that has been validated for both 
the LCS and for the frigate in the CDD [capability development 
document] that we have submitted.
    So, as far as any additional capability, if we put 
flexibility--for example, if we choose to go with a vertically 
launched system that could take any other longer-range missile 
of the future, that would be a bonus, if you will. It increases 
the flexibility for it to adapt to future weapons.
    But from an anti-surface standpoint, that is not one of the 
focuses of this team this time, although we continue to 
evaluate across the spectrum of capability.
    Ms. Bordallo. Thank you very much, Admiral.
    And I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo. I appreciate your 
questions.
    Admiral Boxall, Admiral Neagley, again, thank you so much 
for joining us today. This is important testimony.
    Before I begin the questions, I do want to give a shout-out 
to Commander Crossman, who is extraordinary. He was given a 
mission set when we were traveling to the yards down in the 
Gulf, and he performed extraordinarily. He even stayed with me 
late into the evening to have a special shipman meet us back at 
the airport.
    So, Commander Crossman, extraordinary performance. I have 
to thank you explicitly for that. So I want to make sure both 
Admiral Boxall and Admiral Neagley realize how valued we are as 
a Navy to have you there serving our Nation. So thank you.
    I want to begin, Admiral Boxall, by talking a little more 
in depth about the capabilities for our upcoming frigate class. 
So a lot of discussion about what should be in that requirement 
set, talking about area air defense capability, enhanced 
survivability, expanded range, an additional margin for future 
weapons systems. I think all those things are very critical.
    I want to get your perspective on what you believe--just 
generally. I understand you will be coming at it with 
requirements, but, just generally, what do you think are the 
most important mission capabilities on that small surface 
combatant frigate class? And what do you think the scope of 
cost range is that that ship should fall within? And I 
understand that that is going to be something that you are 
putting out there, but just give us a general sense.
    Admiral Boxall. Yes, sir.
    First, with regard to Commander Crossman, as a former 
Carney CO [commanding officer], I was also the commanding 
officer of Carney, and he has been a great one. I have known 
him for a long time. So thank you for that.
    Mr. Wittman. Extraordinary.
    Admiral Boxall. With regard to the capability of--we are 
focusing this effort in, kind of, the main area of 
survivability, which--air defense piece.
    And when we say ``area air defense,'' I think, as a former 
Aegis [U.S. Navy phased array radar-based combat system] 
commanding officer, that we think about protecting large areas, 
you know, against cruise missiles and long-range missiles and 
things like that. We are not looking at that level. We are 
looking at something greater than the self-defense capability 
that we have, which is pretty robust when you include the 
systems. And I will keep it at the unclassified level here, 
but, certainly, we have a combination of systems that we think 
work in concert to protect itself in a reasonable environment.
    And then, if you look towards, you know, a more complex, 
contested environment, then we look at, you know--you have to 
look at the quality of the radar. So that is something that we 
are focusing on. So the quality of the radar right now--we have 
had a rotating radar. We are having a dialogue on whether a 
fixed radar or a rotating radar that is solid state is going to 
be the best choice.
    And, again, when you look at that radar, you look at the 
combat system and the commonality with the other one. So its 
ability to operate with other ships, the destroyers and 
cruisers out there, as part of a network force out there is 
very important. So we look at communications. Does it have the 
right COMs [communications] gear? Are there electronic warfare 
systems on there that are compatible and allow for a give-and-
take between ships?
    So when you look at all those things and we look at--you 
know, we don't know exactly what cost is going to be. 
Obviously, we had estimates when we were looking at what the 
frigate would be. Obviously, if we do get more capability, we 
have a choice of either taking some more things off of there 
and keeping the price about the same or increasing slightly. 
Those are the types of discussions we will have with OSD 
[Office of the Secretary of Defense] and with the Hill to 
ensure that we all think, going forward, we can depend on this 
level of support for this much capability.
    We also want to make sure this remains a low part of the 
high-low mix. So we have constrained ourselves to ensure that 
we are getting the most bang for the buck, to ensure that we 
are not making this so big that it will become cost-prohibitive 
to having the capacity that we need out there.
    So I hope that gives you about the things you were looking 
for, sir.
    Mr. Wittman. It certainly does. And I appreciate your 
willingness to make sure you have discussions with us on the 
Hill. Because we are going to have to make sure there is a 
coordination there about what the requirement set ultimately 
ends up with--where that ends up on the affordability range.
    And as I have talked earlier, for this subcommittee and for 
the full committee going forward, as we look at growing the 
fleet, the two elements that I think are extraordinarily 
important are time and resources. And that means, as we are 
going through this, we have to make sure we use time to our 
advantage, and that is get from concept to operation as quickly 
as we can, making sure that we have mature designs so we know 
how to work that, we know how to save money, and then making 
sure, as you said, to make sure in the high-/low-end mix the 
low end has the right capability in the right price range and 
that we deliver that on time.
    So scale, as you heard a lot of other members talk about 
too, scale of production is another important element. Because 
you are going to pay more if you are building a smaller number 
than you are if you are building a large number. So we want to 
make sure that we have that scaled properly.
    Let me ask this. Going to the LCS as we see it today and 
with the mine countermeasure package not being available until 
2021, give me your perspective on what we are going to do to 
have that mine countermeasure capability going forward until we 
get that system delivered and operationally proficient on the 
LCS. Are we going to keep Avenger class going? What are we 
going to do with Sea Dragon? Can we do that in the Asia-Pacific 
and make sure we have that capability? Because, as you know, 
that is the area, as Admiral Harris talked about, where there 
is a real demand signal from the COCOMs [combatant commands].
    So give me your perspective on how we make sure, you know, 
we have that right capability now. Because we planned on having 
it sooner than where we will ultimately end up with it.
    Admiral Boxall. Yes, sir.
    So, with the mine warfare capability, obviously, we are--we 
keep hearing from, you know, both the Pacific and the European 
theater that mine capability is incredibly important. And so we 
are looking at different ways to mitigate now both with and 
without LCS.
    But I will say I am not the requirements sponsor for mine 
warfare. That is obviously Major General Owens.
    Mr. Wittman. Right.
    Admiral Boxall. But to your question of keeping the Avenger 
class around, obviously, that class is getting tired, those 
ships. And so we are at a critical point of making those 
decisions of do we take the risk or add the cost to keep those 
at a much higher rate of readiness. And the return on 
investment, the operational availability of those ships, is 
getting harder and harder to keep up.
    So I won't answer the question for him, but I will say that 
I think we know that we have to get that plan right, or else 
the Avenger class is going to--you know, it will cease being 
useful, and we will be caught with a gap.
    So, in the meantime, I know we are working interim 
mitigating measures, and we are actually finding some 
innovative ways to adjust to that, both with and without LCS 
until that comes on line.
    Mr. Wittman. Very good. Thank you.
    Admiral Neagley, I want to go back to get you to elaborate 
a little bit on questions that were asked earlier, and that is: 
The Navy's LCS request for proposals had in it LCS projections 
from 2018 through 2020 at one ship per year. And you heard many 
other members talking about the challenges that that faces or 
provides for the industry, the cost associated with that.
    Give me your perspective on where you see us finishing out 
this current LCS design and construction, what the build-out 
there would be, and when you would envision us moving to 
construction of frigate class as that decision is made. So if 
you can give me those numbers each year, what you project we 
need, obviously keeping in mind the industry, and then 
transitioning to frigate.
    Admiral Neagley. Yes, sir.
    So, for the frigate, we intend to award the frigate by 
fiscal year 2020, is our target to get to frigate. So we will 
have a series of design activities to mature that design, to 
get to a design award, a detailed design and contract award, in 
fiscal year 2020.
    We talked about the industrial base and what the industrial 
base is required to build ships efficiently between now and 
then. The numbers of ships for each one of those years will be 
based on--the Navy's requirements will be articulated in the 
budget. So that will be informed by, you know, not all of Navy 
priorities.
    So I really can't speak to specific numbers in those years, 
but, certainly, from an efficiency standpoint for the 
shipyards, we have articulated that we think about 3 ships a 
year or 1.5 per shipyard a year is the right number to maintain 
the workforce and to leverage the efficiencies from the 
investment in those yards.
    Mr. Wittman. So it will be logical, then, to assume that 
going forward the request would be to keep it at that level at 
least through 2019, which is when you would transition in 2020 
to the new frigate class. Am I safe in assuming that? And I 
understand that it comes from decision makers above you, but 
just to be able to get your perspective on it.
    Admiral Neagley. So I think there is a desire that we get 
to frigate as soon as possible. And, again, the specific 
numbers in those years will be based on not only considerations 
for the industrial base and the shipyard but the competing Navy 
priorities to budget for those ships. So it is hard for me to 
predict what that budget--that shipbuilding profile will look 
like.
    Mr. Wittman. Okay. Very good. Thanks, Admiral Neagley.
    I know we have, I think, a desire for some more questions, 
so I will go to Mr. Garamendi, who has indicated an interest 
for additional questions.
    Mr. Garamendi. I don't have any more. Thank you, Mr. 
Chairman.
    Mr. Wittman. All right. Very good.
    Do any other members have additional questions?
    Hearing none, I want to thank our witnesses, thank our 
members for being here today.
    And our subcommittee is adjourned.
    [Whereupon, at 5:12 p.m., the subcommittee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                              May 3, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 3, 2017

=======================================================================

 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 3, 2017

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. You have spoken publicly about the Navy's concept for 
a network of armed nodes that require the adversary to deal with the 
entire system, not just a single ship or surface action group, not just 
one carrier strike group, or not just one submarine. I am curious about 
the role of the LCS in this concept, and how we might be able to refine 
the mission set of the LCS going forward.
    Can you speak to how LCS's modularity interfaces may allow for the 
inclusion of the latest technology and how this modularity may differ 
on other classes of ships?
    What might this mean to the warfighter in terms of ability to 
deploy unmanned surface, subsurface, and aviation assets in a 
distributed but netted fashion?
    Additionally, what might this mean in terms of future weapon 
systems, such as directed energy systems, or railgun?
    Admiral Boxall. LCS was specifically designed with modular, open-
systems architecture inherent in the ship and its combat system allow 
for rapid integration of technological solutions that increase 
capability at reduced cost. The ship possesses common Navy systems 
across the Command, Control, Communications, Computers and Intelligence 
(C4I) suite, which can be leveraged by the fleet commander to increase 
battlespace awareness. LCS includes designated weapons and mission 
spaces that provide defined support functions via common interfaces, 
codified in an Interface Control Document (ICD)--to include limitations 
of Space, Weight, Power, and Cooling (SWaP-C) which apply to both ship 
variants. SWaP-C is a critical factor in determining the feasibility of 
incorporating future weapon systems such as directed energy or railgun. 
The open-systems architecture of the LCS enables integration of these 
changes with less intrusive installation effort on the ship. Unlike 
traditional ship designs where installation of new systems may require 
significant alterations (such as structural modifications to provide 
space and foundations, cable runs to accommodate power requirements, 
changes to piping, etc.), LCS can support installation of new systems 
with minimal ship impact and cost. The Navy is investigating upgrades 
and backfits to LCS to improve the lethality and survivability, 
including upgrades that enable LCS to increase its contribution to the 
Fleet's netted tactical picture. For example, LCS has already 
successfully demonstrated its ability to deploy an unmanned aerial 
vehicle (``Firescout'') in the 7th Fleet Area of Responsibility. LCS 
modularity and ICD specifications provide a streamlined path for 
insertion of new technology and weapons systems such as over-the-
horizon missiles and directed energy systems. These attributes provide 
the Combatant Commanders greater flexibility to deploy a more lethal 
LCS combined with the warfighter's ability to employ multiple unmanned 
systems as a netted force multiplier.
    Mr. Langevin. As it pertains to both current LCS and future frigate 
variant acquisition strategies, I am concerned about throwing the 
industrial base into flux as design requirements change and procurement 
levels are drastically altered. What are your concerns regarding the 
industrial base, and how can we help mitigate any potential unintended 
consequences?
    Admiral Boxall. The industrial base for the Small Surface 
Combatants including LCS and FFG are extremely important to achieving 
our force structure goals in an affordable manner. The FFG(X) award 
delay until FY20 to mature the design and pursue full and open 
competition is supported by the continued procurement of LCS in FY18 
and FY19 to deliver much needed capability and keep the industrial base 
stable. The Navy's most recent (2016) Force Structure Assessment (FSA) 
validates the warfighting requirement for 52 Small Surface Combatants 
(SSCs). As maritime threats continue to evolve and as the operating 
environment becomes increasingly complex, the Navy is placing greater 
emphasis on distributed operations, highlighting the need for a FFG(X) 
with improved lethality and survivability as a part of the full 
complement of 52 SSCs.
    Mr. Langevin. As it pertains to both current LCS and future frigate 
variant acquisition strategies, I am concerned about throwing the 
industrial base into flux as design requirements change and procurement 
levels are drastically altered. What are your concerns regarding the 
industrial base, and how can we help mitigate any potential unintended 
consequences?
    Admiral Neagley. The Navy recognizes the critical nature of 
maintaining the shipbuilding industrial base while transitioning from 
LCS to Frigate. PB18 defers procurement of the Frigate until FY2020, 
with additional LCS being procured in FY2018 and FY2019. This plan 
allows the Navy to mature the Frigate design and better understand the 
cost drivers across the various design options while preserving 
viability of the current small surface combatant industrial base and 
allowing them to remain competitive ahead of the pending Frigate award 
in FY2020.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. BYRNE
    Mr. Byrne. The Navy should be commended for utilizing expertise and 
relevant and developed technologies from allied navies with significant 
experience in the littorals. I'm aware that the LCS program has brought 
engineering and manufacturing of these technologies to the U.S., 
creating U.S. jobs. I believe we can bring more of these jobs to U.S. 
shores. I think we can provide the best ships, with the best 
technologies for our sailors, leveraging our allies' investment to 
create U.S. jobs.
    How will the Navy continue to leverage this foreign investment 
moving forward with the frigate program?
    Admiral Neagley. To promote and provide for full and open 
competition, the Navy will consider any hull form--foreign and 
domestic--that meets the requirements. Having multiple offerors compete 
for the FFG(X) design will ensure competitive pricing and enable the 
Navy to select the best value design. Any future competitive 
solicitation for the Detail Design and Construction of FFG(X) shall 
include the requirements of U.S.C. 7309, which mandates that no major 
component of the hull or superstructure of any vessel constructed for 
the armed forces may be constructed in a foreign shipyard. Surface 
Vessels of War and Technical Data are included in the U.S. Munitions 
List and therefore subject to International Traffic in Arms Regulations 
(ITAR) restrictions. Therefore, any interested parties must comply with 
all U.S. export control laws and regulations.

                                  [all]
</pre></body></html>
